 OFFICE OF AUDIT
 REGION 2
 NEW YORK/NEW JERSEY




         The Lower Manhattan Development
    Corporation, New York, NY, Approved Invoices
       That Were Not Always Consistent With
              Subrecipient Agreements




                         0
2012-NY-1010                                July 27, 2012
                                                        Issue Date: July 27, 2012

                                                        Audit Report Number: 2012-NY-1010



TO:            Yolanda Chavez, Deputy Assistant Secretary for Grant Programs, DG



                for
FROM:          Edgar Moore, Regional Inspector General for Audit, New York/New Jersey
                                                                  Region, 2AGA


SUBJECT:       The Lower Manhattan Development Corporation, New York, NY, Approved
               Invoices That Were Not Always Consistent With Subrecipient Agreements



    Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General’s (OIG’s), final results of our review of the Lower Manhattan Development
Corporation’s administration of CDBG Disaster Recovery Assistance funds covering the period
April 1, 2010 through March 31, 2011. The review was performed in response to a
congressional mandate that HUD OIG continuously audit LMDC’s administration of the $2.783
million in Disaster Recovery Assistance funds awarded to the State of New York in the
aftermath of the September 11, 2011, terrorist attacks on the World Trade Center in New York
City.

    HUD Handbook 2000.06, REV-4 sets specific time frames for management decisions on
recommended corrective actions. For each recommendation in the body of the report without a
management decision, please respond and provide status reports in accordance with the HUD
Handbook. Please furnish us copies of any correspondence or directives issued because of the
audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
212-264-4174.




                                                1
                                          July 27, 2012
                                          The Lower Manhattan Development Corporation, New
                                          York, NY, Approved Invoices That Were Not Always
                                          Consistent With Subrecipient Agreements


Highlights
Audit Report 2012-NY-1010


 What We Audited and Why                   What We Found

We performed the 16th review of the     LMDC officials generally disbursed the CDBG
Lower Manhattan Development             Disaster Recovery Assistance funds in accordance with
Corporation’s (LMDC) administration     the guidelines established under the HUD-approved
of the $2.783 billion in Community      partial action plans. However, officials approved
Development Block Grant (CDBG)          invoices for reimbursement that were not always
Disaster Recovery Assistance funds      consistent with the terms of the subrecipient
awarded to the State of New York.       agreements and all applicable requirements. This
                                        condition occurred because LMDC officials deemed
The objective of the audit was to       the subrecipient responsible for ensuring the proper use
determine whether LMDC officials        of the funds and did not perform a sufficient review of
disbursed CDBG Disaster Recovery        the invoices before approving them for reimbursement.
Assistance funds in accordance with the As a result, LMDC officials improperly reimbursed
guidelines established under the HUD- $159,261 in ineligible, unreasonable, and inadequately
approved partial action plans for the   supported costs.
Chinatown Clean Streets and the New
York Stock Exchange Security and
Streetscape programs.

 What We Recommend

We recommend that HUD’s Deputy
Assistant Secretary for Grant Programs
direct LMDC officials to (1) strengthen
controls over the invoice approval
process; (2) recoup, through offsets of
future reimbursements, $107,700 in
ineligible and $13,037 in unreasonable
costs reimbursed under the Chinatown
Clean Streets program; and (3) recover,
through offsets of future
reimbursements, $4,039 in ineligible
costs and provide supporting
documentation for $34,485 reimbursed
under the New York Stock Exchange
Security and Streetscape program.


                                                2
                            TABLE OF CONTENTS


Background and Objectives                                                       4

Results of Audit
      Finding:   LMDC Officials Approved for Reimbursement Invoices That Were   6
                 Not Always Consistent With the Subrecipient Agreements

Scope and Methodology                                                           11

Internal Controls                                                               13

Appendixes
A.    Schedule of Questioned Costs and Funds To Be Put to Better Use            15
B.    Auditee Comments and OIG’s Evaluation                                     16
C.    Schedule of Disbursements as of March 31, 2011                            23




                                            3
                           BACKGROUND AND OBJECTIVES

The Lower Manhattan Development Corporation (LMDC) was created in December 2001 as a
subsidiary of the Empire State Development Corporation to function as a joint city-State
development corporation. A 16-member board of directors, appointed equally by the governor of
New York and the mayor of New York City, oversees LMDC’s affairs. The Empire State
Development Corporation performs all accounting functions for LMDC.

The State of New York designated LMDC to administer $2.783 billion1 of the $3.483 billion in
Community Development Block Grant (CDBG) Disaster Recovery Assistance funds appropriated
by Congress in the aftermath of the September 11, 2001, terrorist attacks on the World Trade Center
to assist with the recovery and revitalization of Lower Manhattan. Planned expenditures of Disaster
Recovery Assistance funds are documented in action plans that receive public comment and are
approved by the U.S. Department of Housing and Urban Development (HUD). As of March 31,
2011, HUD had approved 15 partial action plans and multiple amendments that allocated the $2.783
billion to various programs and activities (see appendix C for amounts by program), and LMDC had
disbursed approximately $2.1 billion, or 75 percent, of the $2.783 billion appropriated.

During this audit, we reviewed disbursements related to the following programs:

The Chinatown Clean Streets Program: As of March 31, 2011, HUD had approved $7 million for
the Chinatown Partnership Local Development Corporation to initiate community improvements
in Chinatown through a combination of short-term projects and long-term planning. LMDC
officials allocated $5.4 million of the $7 million to the Chinatown Clean Streets program for the
manual and mechanical sweeping of the sidewalks, curbs, and gutters; frequent removal of
bagged litter from street corners; pressure cleaning of sidewalks; graffiti removal; and additional
maintenance. The remaining $1.6 million was allocated for short-term community development
projects, marketing, and public outreach efforts undertaken by the Chinatown Partnership.

The New York Stock Exchange Security and Streetscape Program: As of March 31, 2011, HUD
had approved approximately $25.26 million for this program, of which LMDC officials allocated
$160,000 for an environmental review and the remaining $25.1 million for the program’s
implementation. The program consisted of two phases. Phase one involved the installation of
security barriers and guard facilities, the repaving of the Broadway intersections at Wall Street
and Exchange Place, the installation of cobblestones along Broad Street between Wall Street and
Exchange Place, the placement of “no-go” bollards, and the addition of new and more attractive
street furniture to facilitate pedestrian circulation and enjoyment of the Financial District. Phase
two involved aesthetic and security improvements that supported and enhanced the Financial
District as a competitive location for businesses and residents. Such improvements included a
fountain on Broad Street, the repaving of an expanded area of the Financial District using
cobblestones, and enhanced lighting.

Our objective was to determine whether LMDC officials disbursed CDBG Disaster Recovery
Assistance funds in accordance with the guidelines established under the HUD-approved partial
1
    The Empire State Development Corporation administers the remaining $700 million.

                                                         4
action plans for the Chinatown Clean Streets and the New York Stock Exchange Security and
Streetscape programs.




                                             5
                                RESULTS OF AUDIT


Finding: LMDC Officials Approved for Reimbursement Invoices That
         Were Not Always Consistent With the Subrecipient
         Agreements
LMDC officials generally disbursed the CDBG Disaster Recovery Assistance funds in
accordance with the guidelines established under the HUD-approved partial action plans for the
Chinatown Clean Streets and the New York Stock Exchange Security and Streetscape programs.
However, officials approved for reimbursement invoices that were not always consistent with the
terms of the subrecipient agreements and all applicable requirements. This condition occurred
because officials deemed the subrecipients responsible for ensuring the proper use of the funds
and did not perform a sufficient review of the invoices before approving them for
reimbursement. As a result, LMDC officials improperly reimbursed $111,739 in ineligible,
$34,485 in unsupported, and $13,037 in unreasonable costs. Officials also owed $2,258 in
underreimbursed payroll taxes to the Chinatown Partnership Local Development Corporation.



 Ineligible Costs Were
 Reimbursed

              LMDC officials improperly reimbursed the subrecipient $111,739 for ineligible
              costs. Of that amount, $107,700 pertained to the Chinatown Clean Streets program,
              and $4,039 pertained to the New York Stock Exchange Security and Streetscape
              program. With regard to the Chinatown Clean Streets program, officials reimbursed
              $107,700 in payments under a contract let exclusively for the purchase of materials.
              However, such payments were not eligible for reimbursement with CDBG Disaster
              Recovery Assistance funds, as the Subrecipient’s subcontractor improperly let the
              contract with the intent of circumventing Davis-Bacon Act prevailing wage
              requirements. According to 29 CFR 5.5a, any contract in excess of $2,000 entered
              into for actual construction, alteration, or repair financed in whole or in part from
              Federal funds and subject to the labor standards provisions must contain the required
              provisions. Additionally, 29 CFR 5.6a stated that no payments shall be approved
              unless the required clauses and appropriate wage determinations of the Secretary of
              Labor are contained in such contracts.

              In 2007, Chinatown Partnership Local Development Corporation officials divided a
              $204,900 contract for the renovation of their new headquarters into two separate
              labor and material contracts. The labor contract was financed by private funding
              sources, and the materials contract was to be paid with LMDC’s funds. A
              procurement justification memorandum prepared by a Chinatown Partnership
              official, dated May 14, 2007, stated that the contract was divided “to avoid

                                                6
                 cumbersome Federal regulations regarding the use of Federal funds for construction
                 projects.” Further, in a letter, dated May 13, 2010, a Chinatown Partnership official
                 stated, “It was agreed by all parties that the LMDC/SBS2 funding would be used
                 exclusively for the purchasing of materials and private support would be used for the
                 labor portion of the work. As such, the Davis-Bacon regulation does not apply in
                 this project.”

                 While the materials contract and three related change orders valued at $107,700
                 were obtained, the labor contract was not. Further, both labor and materials costs
                 were included in the total cost of each of the changes orders. Based on a legal
                 opinion obtained from HUD’s New York Regional Office of General Counsel, the
                 Chinatown Partnership “cannot avoid Davis‐Bacon prevailing wage requirements by
                 using LMDC funds under a contract exclusively for the purchase of materials. The
                 CDBG Disaster Recovery funds received by LMDC are governed by Section 110 of
                 Title I of the Housing and Community Development Act of 1974, 42 USC [United
                 States Code] 5310. Section 110 requires all laborers and mechanics be paid
                 prevailing wages in accordance with Davis‐Bacon when ‘construction work’ is
                 financed ‘in whole or in part’ with Title I funds. HUD has interpreted ‘construction
                 work’ to include the purchase of materials which are incorporated into the
                 construction of a structure and have no independent use…the Chinatown Partnership
                 LDC [Local Development Corporation] used LMDC funds to purchase materials
                 including ceiling, painting, drywall, stones and tiles. These materials do not have an
                 independent use outside of the project and so must be incorporated in construction.
                 As a result, the purchase of these materials triggers Davis‐Bacon coverage.
                 Separating the LMDC funds into a contract exclusively for the purchase of materials
                 does not avoid coverage.”

                 In addition, LMDC officials improperly reimbursed $4,039 in ineligible costs under
                 the New York Stock Exchange Security and Streetscape program for payroll costs
                 incurred by staff not included in the consultant’s staff schedule. Section 2.02 A of
                 the consultant contract stated that the staff schedule may be amended or
                 supplemented with respect to any positions as agreed upon from time to time by the
                 consultant and the subrecipient. However, evidence of such an amendment or
                 supplement was not provided.

                 LMDC officials improperly reimbursed the subrecipient $111,739 for ineligible
                 costs under the Chinatown Clean Streets and the New York Stock Exchange
                 Security and Streetscape programs because officials held the subrecipient
                 responsible for ensuring the proper use of the funds and did not perform a
                 sufficient review of the invoices before approving them for reimbursement. A
                 more detailed review would have caused LMDC officials to question the
                 construction contract let exclusively for the purchase of materials, given such
                 work items as drywall, carpentry, painting, flooring, and electrical supplies
                 included in the application for payment, which should have signaled the need for
2
 The New York City Department of Small Business Services was the subrecipient for the Chinatown Clean Streets
program.

                                                      7
                    labor that required compliance with the Davis-Bacon Act prevailing wage
                    requirements. In addition, a more detailed review of the invoices might have
                    alerted officials to the ineligible expenses included in the subrecipients’
                    reimbursement requests.

    Inadequately Supported
    Consultant Costs Were
    Reimbursed

                    LMDC officials did not provide adequate documentation to support $34,485 in
                    consultant costs reimbursed under the New York Stock Exchange Security and
                    Streetscape program. While the costs were incurred for eligible expenses,
                    including $33,729 in liability insurance premiums, and $756 in overnight delivery
                    and messenger services, they were not supported in accordance with the
                    requirements of 24 CFR 85.20(b)(6) and Section IV of the subrecipient
                    agreement. Officials provided the consultants’ transaction reports in support of
                    the liability insurance premiums and the overnight delivery and messenger
                    services. However, these reports were not accompanied by source documentation
                    or documentary evidence of the expenses such as bills, receipts, or copies of
                    cancelled checks. These deficiencies occurred because LMDC officials deemed
                    the documentation provided by the subrecipient as adequate support for the costs
                    reimbursed. However, without the source documents, LMDC officials provided
                    no assurance that $34,485 in consultant costs was reimbursed to the subrecipient
                    for the actual expenses incurred.

    Unreasonable Rental Costs
    Were Reimbursed

                    LMDC officials reimbursed the subrecipient $13,037 for unreasonable rental
                    costs. In accordance with the requirements of 2 CFR Part 225, appendix A,
                    paragraph C.1.a., to be allowable under Federal awards, costs must be necessary
                    and reasonable for the proper and efficient performance and administration of
                    Federal awards. However, after the completion of the renovation of Chinatown
                    Partnership officials’ new headquarters in October 2007, officials continued to
                    lease additional office space until December 2008. While time was needed to
                    terminate the lease and move into the new headquarters, LMDC officials did not
                    document the need for the additional space during the 14-month period. As a
                    result, $13,037 in associated rental costs for the period3 February 1 through
                    December 31, 2008, is deemed unreasonable and unnecessary for the program’s
                    operations.




3
    For the stated period, LMDC officials provided documentation to support that the subrecipient received
    reimbursement for all but the March 2008 rental payment.

                                                           8
    Payroll Taxes Were
    Underreimbursed

                    LMDC officials owed the Chinatown Clean Streets program approximately
                    $2,258 in underreimbursed payroll taxes. This condition occurred because
                    officials were unaware that payroll taxes were based on gross wages. As a result,
                    the invoices approved for reimbursement contained payroll taxes that were
                    miscalculated, as they were based on wages after deductions for health insurance
                    and transit costs. The underreimbursed payroll taxes, attributed to four
                    employees, were valued at $1,129. However, since the Chinatown Partnership, as
                    the employer, is also liable for the same amount of payroll taxes, twice the value,
                    or $2,258, was underreimbursed. Consequently, LMDC officials did not ensure
                    that all eligible expenses incurred under the subrecipient agreement were properly
                    reimbursed.

    Reimbursed Consultant Payroll
    Costs Were Not in Accordance
    With the Contract

                    LMDC officials approved for reimbursement consultant payroll costs that were
                    not in accordance with the consultant contract. Section 2.02 A of the contract
                    provided that the actual direct payroll of the consultant’s technical and
                    professional employees should exceed neither the hourly rates nor the multipliers
                    set forth in the consultant’s staff schedule. The consultant could increase salaries
                    if there was an offsetting decrease in one or more of the other salaries, provided
                    that the consultant had obtained prior written approval from the subrecipient.
                    While LMDC officials reimbursed the subrecipient in excess of the rates set forth
                    in the contract for five of the consultant’s professional employees and in excess of
                    the multiplier for one employee,4 there were offsetting decreases in salaries; thus,
                    this deficiency had no monetary impact. Nevertheless, officials did not provide
                    evidence of the subrecipient’s prior written approval of the salary changes.
                    Consequently, there was no assurance that LMDC officials conducted a detailed
                    review of the consultant’s payroll costs before such costs were approved for
                    reimbursement.

    Conclusion

                    LMDC officials generally disbursed the CDBG Disaster Recovery Assistance
                    funds in accordance with the guidelines established under the HUD-approved
                    partial action plans for the Chinatown Clean Streets and the New York Stock
                    Exchange Security and Streetscape programs. However, officials improperly

4
    While consultant officials charged a higher multiplier for this employee, they also charged a lower hourly rate than
    that set forth in the agreement. However, the net effect was that the payroll costs were overbilled.


                                                             9
          reimbursed $111,739 in ineligible, $34,485 in unsupported, and $13,037 in
          unreasonable costs. LMDC officials also underreimbursed $2,258 in payroll
          taxes, and approved consultant payroll costs that were not in accordance with the
          contract. Consequently, opportunities exist to strengthen the controls over the
          invoice approval process to ensure that officials properly verify that the expenses
          submitted for reimbursement are consistent with the terms of the subrecipient
          agreements and all applicable requirements. While LMDC officials held the
          subrecipients responsible for ensuring the proper use of the funds, LMDC
          officials are ultimately responsible for the performance of the subrecipient and all
          subcontractors and must conduct effective subrecipient monitoring and oversight.

Recommendations

          We recommend that HUD’s Deputy Assistant Secretary for Grant Programs direct
          LMDC officials to

          1A.     Strengthen controls over the invoice approval process to ensure that the
                  subrecipient is reimbursed in accordance with the terms of the subrecipient
                  agreement and all applicable requirements.

          1B.     Recoup, through offsets of future reimbursements, $107,700 in ineligible
                  costs reimbursed to the subrecipient under the Chinatown Clean Streets
                  program due to payments made under a construction contract improperly
                  let with the intent of circumventing Davis-Bacon Act prevailing wage
                  requirements.

          1C.     Recover, through offsets of future reimbursements, $4,039 in ineligible
                  costs reimbursed to the subrecipient under the New York Stock Exchange
                  Security and Streetscape program due to incorrect consultant payroll
                  billings.

          1D.     Provide adequate supporting documentation for $34,485 in liability
                  insurance premiums, and overnight delivery and messenger services costs.
                  If adequate supporting documentation cannot be provided, LMDC should
                  recapture the funds through offsets of future reimbursements.

          1E.     Recoup, through offsets of future reimbursements, $13,037 in
                  unreasonable costs reimbursed to the subrecipient under the Chinatown
                  Clean Streets program due to the unreasonable cost of leasing two office
                  spaces at the same time without a written justification.

          1F.     Pay $2,258 owed to the Chinatown Partnership Local Development
                  Corporation due to miscalculated payroll taxes.




                                           10
                          SCOPE AND METHODOLOGY

To accomplish our audit objectives, we reviewed applicable laws, regulations, and program
requirements; HUD-approved partial action plans; and LMDC’s records. We documented and
reconciled disbursements recorded during the audit period, April 1, 2010, through March 31, 2011,
in HUD’s Disaster Recovery Grant Reporting System.

LMDC disbursed $245.2 million of the $2.783 billion in Disaster Recovery Assistance funds
appropriated for activities related to the rebuilding and revitalization of Lower Manhattan during the
audit period. We obtained a general understanding of LMDC’s internal controls over the programs
reviewed and tested approximately $6.36 million, representing 2.6 percent of the amount disbursed
for the period, as follows:

                                                 Amount      Amount disbursed          Percentage
                 Program                           tested    from April 1, 2010,         tested
                                               (in millions) through March 31,
                                                             2011 (in millions)
Chinatown Clean Streets                                $2.21                $2.21             100%
New York Stock Exchange Security and                    4.15                 6.21              67%
Streetscape
                               Total                   $6.36                   $8.42

For the disbursements under the Chinatown Clean Streets program, LMDC officials authorized
nine drawdowns, of which we reviewed 100 percent. For the New York Stock Exchange
Security and Streetscape program, LMDC officials authorized two drawdowns, of which we
reviewed a nonstatistical sample of one, equivalent to 50 percent or the greater of the 2
drawdowns.

We also selected a nonstatistical sample of 3, representing approximately 11.5 percent, of the 26
sub-subcontract street cleaning employees under the Chinatown Clean Streets program to test
whether the reimbursed payroll costs were supported by the timesheets and the rates specified in
the contract. The three employees selected held nonsupervisory positions and worked the most,
the median, and the least hours during the period reviewed.

While we used the data obtained from HUD’s Disaster Recovery Grant Reporting System for
informational purposes, we did not assess the system controls affecting the reliability of the data.
However, we conducted limited data testing by reconciling the disbursements with an LMDC
report and tracing the data relevant to our audit objective to their source documents. Consequently,
we determined that the data were sufficiently reliable for the purposes of this report.

We performed the audit fieldwork at LMDC’s and the subrecipient’s offices located in Lower
Manhattan and at LMDC’s parent company, the Empire State Development Corporation’s office,
located in Midtown Manhattan from October 2011 through May 2012. We conducted the audit
in accordance with generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a

                                                 11
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.




                                              12
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objectives:

                      Program operations - Policies and procedures that management has
                      implemented to reasonably ensure that the programs meet their objectives.

                      Compliance with laws and regulations - Policies and procedures that
                      management has implemented to reasonably ensure that the use of funds is
                      consistent with laws and regulations.

                      Safeguarding resources - Policies and procedures that management has
                      implemented to reasonably ensure that the funds are safeguarded against
                      waste, loss, and misuse.

                      Validity and reliability of data - Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

                                                 13
Significant Deficiency

            Based on our review, we believe that the following item is a significant deficiency:

                   Compliance with laws and regulations - LMDC officials approved expenses
                   for reimbursement that were not always consistent with the terms of the
                   subrecipient agreements and all applicable requirements.




                                             14
                                      APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

 Recommendation                          Unsupported      Unreasonable or     Funds to be put
                      Ineligible 1/
     number                                  2/           unnecessary 3/      to better use 4/
       1B                   $107,700
       1C                     $4,039
       1D                                      $34,485
       1E                                                          $13,037
       1F                    _______          _______             _______              $2,258

     Total                  $111,739           $34,485            $13,037              $2,258

1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.

3/   Unreasonable or unnecessary costs are those costs not generally recognized as ordinary,
     prudent, relevant, or necessary within established practices. Unreasonable costs exceed
     the costs that would be incurred by a prudent person in conducting a competitive
     business.

4/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In this instance, if the $2,258 is paid to the Chinatown
     Partnership Local Development Corporation program for underreimbursed payroll taxes,
     it will result in funds to be put to their intended use.




                                             15
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments

Comment 1




                         16
Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2




                         17
Ref to OIG Evaluation   Auditee Comments




Comment 3




Comment 4




                         18
Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 5




Comment 6




                         19
Ref to OIG Evaluation   Auditee Comments




Comment 6


Comment 7


Comment 8




Comment 9




Comment 10




                         20
                         OIG Evaluation of Auditee Comments

Comment 1   According to 24 CFR 85.20(b)(6), accounting records must be supported by such
            source documents as cancelled checks, paid bills, and contracts. However,
            LMDC officials provided blanket multi-million dollar contracts in support of the
            accounting records that were used to substantiate $34,485 in reimbursed
            consultant costs. While these costs were eligible and in line with the approved
            budgets, LMDC officials did not provide the source documents for the actual
            expenses incurred in support of the reimbursements.

Comment 2   LMDC officials have begun to take action in response to our recommendation.

Comment 3   Reliance on the subrecipient is an integral part of the grantee/subrecipient
            relationship. However, as the grantee, LMDC is ultimately responsible for the
            subrecipient’s performance and must carefully monitor its grant activities to
            ensure that HUD CDBG funds are properly used. Given the reimbursement request
            for materials, such as drywall, carpentry, painting, and flooring, which have no
            independent use outside of a construction project, coupled with the fact the materials
            were used in the subcontractor’s office renovation, a careful review of the
            reimbursement request would have caused LMDC officials to question the absence
            of documents demonstrating the contractors’ compliance with the Davis-Bacon Act
            prevailing wage requirements. While we cannot address documentation deemed
            acceptable to OIG and HUD in the past, during the current period reviewed, LMDC
            officials did not always provide source documents for the actual expenses incurred
            in support of the reimbursements.

Comment 4   Despite LMDC officials’ disagreement with all the documentation issues
            reported, they have begun to take action in response to our recommendation.

Comment 5   The $4,039 in payroll costs reimbursed was incurred by staff whose position
            categories were not specified in the consultant contract. While it is true that
            Section 2.02 A of the contract does not specify how changes in staff should be
            documented, it clearly states that the consultant must obtain prior written approval
            from the subrecipient for changes in salaries. In addition, the sentence that
            follows states that the staff schedule may be amended regarding positions or
            salaries as agreed upon from time to time. Based on the requirement that salary
            changes must be documented in writing, it is reasonable to maintain that position
            changes must be similarly documented. Without such documentation, the
            consultant’s payroll costs cannot be properly verified.

            Moreover, the service billings provided in support of the consultant’s payroll
            costs reimbursed during the audit period reflected $6,637 in costs incurred by
            unspecified staff. However, of that amount, only $4,039 was included in the
            subrecipient’s reimbursement request. This was an indication that the
            subrecipient considered some of the payroll costs ineligible. Nevertheless,



                                              21
              because the positions changes were not documented, the eligibility of the payroll
              costs incurred by the unspecified staff could not be verified.

Comment 6     The accounting records used to support the reimbursement of $34,485 in
              insurance premiums and overnight delivery and messenger service costs consisted
              of the consultant’s transaction reports. Despite the eligibility of the costs, neither
              LMDC nor subrecipient officials provided the source documents for the actual
              expenses incurred to substantiate the reimbursements. With regard to the
              insurance costs, officials did not provide the Certificates of Insurance.
              Furthermore, without the source documents, the subrecipient’s certification as to
              the reasonableness and accuracy of all back-up material for these costs could not
              be verified.

Comment 7     Regardless of the dollar amount, LMDC officials must obtain source documents
              to ensure that the subrecipient is reimbursed only for actual expenses incurred.

Comment 8     While the allocations used to determine the amount of communication costs
              chargeable to the program were indicated on the actual phone bills, we questioned
              the basis of the allocations since a cost allocation plan was not provided.
              However, such information was obtained directly from the subrecipient after the
              exit conference. As a result, this issue has been removed from the report.

Comment 9     LMDC did not provide documentation to support its claim that based on an
              evaluation of associated costs, the subrecipient determined that it was reasonable
              for the subcontractor to continue to lease additional office space for a 14-month
              period after the renovation of its new headquarters. Furthermore, the documents
              obtained did not support the explanation provided by a LMDC official that it took
              time to break the long-term lease to avoid litigation and penalties. According to a
              letter from the landlord, dated December 22, 2008, a subcontractor official
              requested to be released from the lease on December 9, 2008, and in accordance
              with the letter, the landlord and a subcontractor official executed a Surrender of
              Lease Agreement on December 29, 2008, or less than three weeks later.

Comment 10 LMDC officials should work with the subrecipient to ensure that the payroll taxes
           are properly paid.




                                                22
Appendix C

         SCHEDULE OF DISBURSEMENTS AS OF MARCH 31, 2011

                     Program                         Budget as of     Audit period        Cumulative        Balance
                                                     Mar. 31, 2011    disbursement      disbursed as of   remaining as
                                                                      Apr. 1, 2010 –    Mar. 31, 2011     Mar. 31, 2011
                                                                      Mar. 31, 20115
Business Recovery Program                              218,946,000           (44,951)      218,775,945          170,055
Job Creation & Attraction Program                      143,000,000          1,574,546      107,572,886       35,427,114
Small Firm Attraction & Retention                       29,000,000           (19,049)       27,702,141        1,297,859
Residential Grant Program                              236,180,809                         236,057,064          123,745
Employment Training Assistance                             346,000                             337,771            8,229
Interim Memorial                                           309,969                             309,969                0
Columbus Park Pavilion                                     998,571                                   0          998,571
History & Heritage Marketing                             4,612,619                           4,612,619                0
Downtown Alliance Streetscape                            4,000,000                           4,000,000                0
NYSE Security Improvements                              25,255,000         6,209,473        11,687,342       13,567,658
Parks & Open Spaces                                     46,981,689           251,552        18,126,302       28,855,387
Hudson River Park Improvement                           72,600,000           933,310        72,568,082           31,918
West Street Pedestrian Connection                       22,955,811                          18,327,501        4,628,310
LM Communication Outreach                                1,000,000                           1,000,000                0
Pace Green Roof Design                                     100,000                                   0          100,000
Chinatown Tourism Marketing                              1,160,000                           1,159,835              165
Lower Manhattan Info                                     2,570,000                           1,752,391          817,609
WTC Site                                               706,618,783        49,988,432       598,399,650      108,219,133
Lower Manhattan Tourism Programs                         3,950,000                           3,950,000                0
East River Waterfront                                  149,000,000        23,135,135        38,825,819      110,174,181
Lower Manhattan Street Management                        9,000,000                           4,191,122        4,808,878
East Side K-8 School                                    23,000,000                              28,703       22,971,297
Fitterman Hall                                          15,000,000                               1,784       14,998,216
Chinatown LDC                                            7,000,000         2,210,825         4,515,731        2,484,269
Lower Manhattan Housing                                 54,000,000         3,935,105        28,200,000       25,800,000
Lower Manhattan Public Service Programs                  7,891,900           323,498         6,821,219        1,070,681
Planning & Administration                              114,892,005         5,044,186        99,212,365       15,679,640
Community & Cultural Enhancements                       87,855,844        12,682,820        48,947,734       38,908,110
Drawing Center                                           2,000,000                             254,560        1,745,440
Fulton Corridor                                         39,000,000            49,909         1,211,596       37,788,404
Economic Development                                     6,775,000                           1,016,007        5,758,993
Transportation Improvements                             31,000,000             4,606           136,499       30,863,501
Education – Other                                        3,000,000                                   0        3,000,000
Utility Restoration and Infrastructure                 483,382,087       116,660,000       483,382,087                0
Rebuilding
Disproportionate Loss                                   33,000,000                           32,999,997               3
Other World Trade Center Area                          196,617,913        22,266,057         22,266,057     174,351,856
Improvements
                     Total                            2,783,000,000      245,205,454      2,098,350,778     684,649,222




5
    Negative amounts represent recoveries to the program.

                                                              23
